No.
In The

Supreme Court of tfre Mntteb ^tateg
ALIREZA VAZIRABADI
Petitioner,
v.

DENVER HEALTH, et al.,
Respondents.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Tenth Circuit
PROOF OF SERVICE DECLARATION, UNDER 28 U.S.C. § 1746
I, Alireza Vazirabadi, do hereby declare that on January 13, 2020, as required by
the Supreme Court Rule 29,1 have served Respondents’ (Defendants’) attorney to
the above proceeding three hard copies booklets of PETITION FOR A WRIT OF
CERTIORARI, by submitting a package containing three booklets at the United
States Post Office with postage prepaid to the mailing address below. I also emailed
the same booklet in PDF format to the Respondents’ attorney email, as well as third
parties listed below.
Defendants’/Respondents’ Attorney
Harris, Karstaedt, Jamison & Powers, P.C. Email
Susan Stamm, Attorney
SStamm@hkjp.com
Lorie Gettman, Legal Assistant
lgettman@hkjp.com
mlowman@hkjp.com
Melody Lowman, Legal Assistant
Phone: 720-875-9140, Fax: 720-875-9141
10333 E. Dry Creek Road, Suite 300, Englewood, CO 80112
Interested Parties
Email
Littler Mendelson, P.C.
jharpole@littler.com
Gartner, Inc., CEB
Jennifer S. Harpole, Attorney
1900 Sixteenth Street, Suite 800, Denver, CO 80202
robert.kelso@forensicpursuit.com
Forensic Pursuit
Mr. Robert Kelso
2000 Arapahoe Street, Suite 1, Denver, CO 80205
I, Alireza Vazirabadi, pursuant to 28 U.S.C. § 1746, under penalty of perjury, declare that
the foregoing statement is true and correct. Executed on January 13, 2020.

Alireza Vazirabadi
843 Vaughn St.
Aurora, CO 80011
avazirabadi@vahop.com-----------

720-218-4769

RECEIVED
JAN 2 8 ?Q2Q

OFFICE OF THE CLERK
SUPREME COURT, U.S.

